Audit of USAID/Malawi’s Training, Use and
Accountability of Cognizant Technical Officers

Audit Report No. 4-612-03-002-P
August 27, 2003




            PRETORIA, SOUTH AFRICA
August 27, 2003

MEMORANDUM
FOR:           Mission Director, USAID/Malawi, Roger Yochelson

FROM:          Regional Inspector General/Pretoria, Jay Rollins /s/

SUBJECT:       Audit of USAID/Malawi’s Training, Use and Accountability of
               Cognizant Technical Officers (Report No. 4-612-03-002-P)

This is our report on the subject audit. In finalizing this report, we considered
management comments on the draft report and have included those comments,
in their entirety, as Appendix II in this report.

This report has 4 recommendations. In response to the draft report,
USAID/Malawi did not indicate agreement with Recommendation Nos. 1 and
2, but did agree with Recommendation Nos. 3 and 4. In addition, corrective
action plans and target completion dates were not included for any of the four
recommendations.         Management decisions can be reached for
Recommendation Nos. 1 and 2 when USAID/Malawi indicates its agreement
and provides corrective action plans and target completion dates. Management
decisions can be reached for Recommendation Nos. 3 and 4 when
USAID/Malawi provides corrective action plans and target completion dates.
Please advise my office within 30 days of the actions you have planned or
taken to implement all four recommendations.

 I appreciate the cooperation and courtesy extended to my staff during the
audit.
[This page intentionally left blank]




                                       2
Table of
Contents                                                                   Page

           Summary of Results                                               5

           Background                                                       5

           Audit Objectives                                                 6

           Audit Findings                                                   7

                  Did USAID/Malawi provide adequate training, use and
                  guidance to its Cognizant Technical Officers to help
                  ensure that they were aware of and capable of
                  performing their responsibilities?                        7

                         Mission Needs to Develop Annual Training
                         Plans for Its CTOs                                 7

                  Did USAID/Malawi hold its Cognizant Technical
                  Officers accountable for performing their
                  responsibilities in accordance with USAID policies and
                  regulations?                                             10

                         Clear Accountability for the Performance of
                         CTO Responsibilities Must Be Maintained           10

                         Performance Evaluations Must Reflect CTO
                         Responsibilities                                  11

           Management Comments and Our Evaluation                          14

           Appendix I - Scope and Methodology                              15

           Appendix II - Management Comments                               17




                                                                                  3
[This page intentionally left blank]




                                       4
Summary of   As part of the Office of Inspector General’s multi-year strategy for auditing
Results      USAID’s procurement activities, the Regional Inspector General, Pretoria
             conducted this audit to determine whether USAID/Malawi provided adequate
             training and guidance to its Cognizant Technical Officers (CTO) and held
             them accountable for performing their responsibilities. (See page 6.)

             The audit showed that USAID/Malawi did not provide enough training and
             guidance to its CTOs to ensure that they were aware of and capable of
             performing their responsibilities. Six of the seven CTOs said that they needed
             more training in the required competencies for acquisition and assistance-
             related skills. This was caused by the Mission’s failure to follow its own
             requirements and those of the Office of Federal Procurement Policy, which
             require the development of annual training plans. (See pages 7-10.)

             USAID/Malawi did not hold its CTOs accountable for performing their
             responsibilities in accordance with USAID policies and procedures. The
             Mission did not maintain clear accountability for the performance of CTO
             responsibilities for four awards. In addition, the Mission lacked critical
             information for evaluating the performance of the CTOs and holding them
             accountable for their CTO responsibilities. Furthermore, the responsible
             Mission officials and staff did not obtain 360 degree input from the
             Contracting Office staff to evaluate the performance of the CTOs. (See pages
             10-14.)

             This report contains four recommendations to help USAID/Malawi provide
             adequate training to the CTOs and hold them accountable for the performance
             of their tasks. (See pages 1, 11, and 14.)

             In response to the draft report, USAID/Malawi did not indicate agreement
             with Recommendation Nos. 1 and 2, but did agree with Recommendation
             Nos. 3 and 4. In addition, corrective action plans and target completion dates
             were not included for any of the four recommendations. Management
             decisions can be reached for Recommendation Nos. 1 and 2 when
             USAID/Malawi indicates its agreement and provides corrective action plans
             and target completion dates. Management decisions can be reached for
             Recommendation Nos. 3 and 4 when USAID/Malawi provides corrective
             action plans and target completion dates. (See page 14)


Background   As a practical matter, contracting/agreement officers rarely have sufficient
             time or the necessary expertise in critical technical or program areas to single-
             handedly ensure successful contract, cooperative agreement or grant
             completion. Contracting/agreement officers, therefore, have been instructed
             to designate a properly trained individual to serve as the Cognizant Technical




                                                                                            5
                   Officer (CTO) for each contract, cooperative agreement or grant.1 CTOs
                   serve as an important member of any acquisition or assistance team. It is the
                   CTO’s responsibility to ensure, through liaison with the contractor or grantee,
                   that the terms and conditions of the acquisition and assistance instrument are
                   accomplished. A formal designation letter, which may follow a standard
                   format, delineates the specific actions the CTO can perform with respect to
                   the award and is effective for the life of the instrument, unless rescinded in
                   writing by the contracting/agreement officer.

                   As of April 2003, USAID/Malawi had seven designated CTOs who were
                   overseeing 21 active contracts, cooperative agreements, and grants estimated
                   at $40.2 million.2 This CTO workforce was comprised of one foreign service
                   U.S. direct hire, four foreign service nationals, one U.S. personal services
                   contractor, and one third country national personal services contractor. All
                   were selected to be CTOs based on their programmatic responsibilities. They
                   were usually designated as CTOs either after the awards were made or during
                   the implementation of the awards. Five of the CTOs learned about their
                   cognizant technical officer responsibilities from the CTO designation letter
                   that the contracting/agreement officer issued to them. Additionally, four of
                   the CTOs at USAID/Malawi were generally the cognizant technical officers
                   for two or three awards at the same time.

                   This audit is one of a series of audits the Office of Inspector General is
                   conducting worldwide of USAID’s training, use and accountability of CTOs.



Audit Objectives   This audit was part of the Office of Inspector General’s (OIG) multi-year
                   strategy for auditing USAID’s procurement activities. The Regional Inspector
                   General, Pretoria conducted this audit to answer the following questions:

                   •   Did USAID/Malawi provide adequate training and guidance to its
                       Cognizant Technical Officers to help ensure that they were aware of and
                       capable of performing their responsibilities?

                   •   Did USAID/Malawi hold its Cognizant Technical Officers accountable for
                       performing their responsibilities in accordance with USAID policies and
                       regulations?

                   1
                      USAID uses the term Cognizant Technical Officer for the individual who performs
                      functions that are designated by the Contracting/Agreement Officer, or are specifically
                      designated by policy or regulation as part of contract or assistance administration. In other
                      parts of the U.S. Government, the synonymous term is usually Contracting Officer’s
                      Technical Representative (COTR).
                   2
                     This amount was not audited.



                                                                                                                  6
                 Appendix I contains a discussion of the scope and methodology for this audit.


Audit Findings   Did USAID/Malawi provide adequate training and guidance to its
                 Cognizant Technical Officers to help ensure that they were aware of and
                 capable of performing their responsibilities?

                 USAID/Malawi did not provide enough training and guidance to its Cognizant
                 Technical Officers (CTO) to help ensure that they were aware of and capable of
                 performing their responsibilities. In response to an OIG questionnaire, six of the
                 seven CTOs said that they needed more training in the required competencies for
                 acquisition and assistance-related skills. This response was supported by the fact
                 that five of the seven CTOs did not have the necessary CTO-related skills before
                 they were hired by the Mission. In addition, the Contracting Office staff said that
                 the CTOs needed training, and would benefit specifically from contract
                 administration training. These issues are discussed in greater detail below.

                 Mission Needs to Develop
                 Annual Training Plans for Its CTOs

                 USAID/Malawi did not provide enough training and guidance to its CTOs to help
                 ensure that they were aware of and capable of performing their responsibilities.
                 Six of the seven CTOs said that they needed more training in specific acquisition
                 and assistance core competencies required to perform their CTO responsibilities.
                 This was supported by the fact that five of the seven CTOs did not have the
                 necessary CTO-related skills before the Mission hired them. This was caused by
                 the Mission’s failure to follow its own requirements and those of the Office of
                 Federal Procurement Policy (OFPP), which require the development of annual
                 training plans for CTOs. Without reviewing the CTOs’ training needs and
                 preparing the annual training plans to address those training needs, the Mission
                 did not provide its CTOs with the support needed to obtain the expertise
                 necessary to perform their jobs. As a result, the CTOs said that they needed more
                 training to enable them to perform their CTO responsibilities.

                 Office of Federal Procurement Policy Letter No. 97-01, dated September 12,
                 1997, requires agencies to (1) identify and publish model career paths; (2)
                 establish education, core training, and experience requirements for their
                 acquisition workforce; and (3) develop mandatory education, training and
                 experience requirements to ensure that individual members of the workforce
                 possess core competencies required of the position. OFPP’s definition of
                 acquisition workforce includes all contracting officer representatives (COR),
                 contracting officer technical representatives (COTR), or equivalent positions. The
                 core training must cover the core competencies contained in the Federal
                 Acquisition Institute’s COR/COTR Workbook.




                                                                                                  7
USAID’s Automated Directives System (ADS) 202.3.1.2 acknowledges OFPP’s
training requirements and discusses how USAID officials should comply with the
requirements. The ADS further states that there may be situations where it is
necessary to nominate an individual to be designated as CTO who does not have
the mandatory certification required by OFPP. In these cases, the operating unit
will develop a written plan that allows the individual to receive the necessary
training as quickly as possible in order to obtain these competencies and
subsequent certification.

USAID/Malawi Mission Order No. 1109, dated July 7, 1999, states that the
Mission’s objective is to provide all employees of the Mission as an organization,
a team, or individuals with the support needed to obtain expertise (skills,
knowledge and abilities) to perform their jobs and prepare for future job
challenges. Furthermore, the mission order holds the strategic objective team
leaders and office heads responsible for requesting training opportunities for
Mission staff through submission of an annual staff development and training
plan.

The CTOs’ claim relating to their need for more training can be attributed to the
Mission’s failure to follow its own mission order, which requires responsible
strategic objective team leaders and other officials to request training
opportunities for their staff by submitting annual staff development and training
plans. Responsible Mission officials and staff gave varied explanations for not
following the mission order. One strategic objective team leader said that he
drafted a training plan, but did not submit it. Another strategic objective team
leader said that he included the training plan in the personnel evaluation forms.
The personnel office checked the personnel evaluation forms and concluded that
no such plan was included. One official said that he did not submit any training
plan and none was available.

In June 2002, the Mission offered an in-house training course titled A&A 4 CTO
Course3, which was an overview course that did not qualify a participant for the
CTO certification requirement. In December 2002, the Mission sent some of its
CTOs to attend the A&A Certification Course offered by USAID/South Africa in
Pretoria, South Africa. However, the majority of the CTOs who responded to the
OIG questionnaire still said that they needed training specific to certain core
competencies as shown in Table 1.




3
    Acquisition and Assistance for CTO Course



                                                                                8
Table 1: Table Showing the Number and Percentage of CTOs Who Said
They Needed More Training Specific to Certain Core Competencies


                                                                 Summary
                                                                     CTOs Who Said
                                                                    They Needed More
                                                       No. of CTOs      Training
            Required Competency                        Responding     No.      %
Contract-related skills and topics
Knowledge of contracting law and regulations               7           5      71%
Knowledge of contracting ethics including
conflicts of interest and security requirements            7           4      57%
Ability to develop contract requirements, conduct
market research, and prepare requirements
documents and statements of work                           7           7      100%
Ability to request/assess bids and proposals               7           7      100%
Ability to conduct price and cost determinations           7           6      86%
Ability to monitor contractor performance                  7           6      86%
Ability to process contracting actions                     7           6      86%
Ability to keep appropriate records and status
reports (to track orders and deliverables, time
charges, etc.)                                             7           6      86%
Ability to administratively approve vouchers for
payment on contracts                                       7           5      71%
Ability to close-out, terminate contract appeals and
protests                                                   7           6      86%

     Required Competencies for Grant and
    Cooperative Agreement skills and topics
Knowledge of the required elements of an award             7           6      86%
Knowledge of laws and regulations applicable to
grants and cooperative agreements such as rules of
competition.                                               7           5      71%
Knowledge of types of assistance instruments and
when each should be used                                   7           6      86%
Ability to process closeout procedures                     7           7      100%
Ability to monitor and evaluate recipients
performance                                                7           7      100%
Ability to review and analyze performance and
financial reports and verify timely delivery               7           7      100%
Knowledge of USAID source origin/nationality
requirements                                               7           6      86%




                                                                                       9
At the time of the audit, USAID/Malawi had contracted with USAID’s Office of
Human Resources, Learning Support Division to offer the CTO certification
training program at the Mission from June 30 to July 11, 2003. Even though the
Mission has scheduled training for its current CTOs, it must still develop written
training plans for all CTOs to prevent similar problems from recurring in the
future, to help them obtain expertise to perform their responsibilities efficiently
and effectively, and to prepare them for future job challenges. Without these
training plans, the Mission may fail to strengthen the skills of its CTO staff and
improve the efficiency and effectiveness of its operation, especially in the area of
acquisition and assistance. Therefore, we recommend the following:

        Recommendation No. 1:              We recommend that
        USAID/Malawi develop annual training plans for all
        Cognizant Technical Officers, in accordance with the Office
        of Federal Procurement Policy Letter No. 97-01 and its own
        Mission Order No. 1109.

Did USAID/Malawi hold its Cognizant Technical Officers
accountable for performing their responsibilities in accordance with
USAID policies and regulations?

USAID/Malawi did not hold its CTOs accountable for performing their CTO-
related responsibilities in accordance with USAID policies and procedures.
Clear accountability for the performance of CTO responsibilities for four awards
was not maintained when the designated CTO resigned from the Mission. In
addition, contrary to Federal and USAID guidance and its own mission order,
USAID/Malawi did not implement a formal process to hold the CTOs
accountable for the performance of their CTO responsibilities. Of the seven
CTOs, the position descriptions for five CTOs and work objectives for six CTOs
did not reflect CTO responsibilities. Furthermore, the responsible Mission
officials and staff, who evaluated the performance of the CTOs, did not obtain
360 degree input from the Contracting Office staff. These issues are discussed in
greater detail below.

Clear Accountability for the Performance
of CTO Responsibilities Must Be Maintained

USAID/Malawi did not hold its CTOs accountable for performing their CTO-
related responsibilities in accordance with USAID Contract Information Bulletin
93-08. The Mission did not inform the Regional Contracting Officer that the
designated CTO for four awards resigned from the Mission in January 2003. The
responsible strategic objective team leader also neglected to inform the Regional
Contracting Officer when he took over as CTO for three of the four awards and
assigned his Project Management Analyst to be the CTO for the fourth award.




                                                                                 10
As a result, clear accountability for the performance of CTO responsibilities for
the four awards was not maintained.

Contract Information Bulletin (CIB) 93-08 requires that the Contracting Officer
be informed when a CTO is reassigned or is separated from service.
Furthermore, it states that, in the absence of the CTO, someone may be
designated to serve as CTO, but such designation shall immediately be
communicated to the Contracting Officer.

According to the responsible strategic objective team leader, the strategic
objective team’s focus since the CTO’s resignation from USAID has been on
finding a new employee. Additionally, he explained that the Mission’s CTO
designation letter states that the strategic objective team leader identified in the
letter was authorized to act as the CTO’s alternate.

However, without informing the Regional Contracting Officer about the CTO’s
resignation from USAID, the Mission did not maintain clear accountability for
the performance of CTO responsibilities for the four awards involved. The CTO
designation letter may allow the team leader to serve as alternate CTO, but,
according to CIB 93-08, such action must still be communicated to the
Contracting Officer. Therefore, we recommend the following:

        Recommendation No. 2:                We recommend that
        USAID/Malawi request the Regional Contracting Officer to
        designate a Cognizant Technical Officer for the four awards
        mentioned above, and issue a Mission notice to remind the
        strategic objective team leaders to communicate with the
        Regional Contracting Officer when a Cognizant Technical
        Officer is reassigned or is separated from service.


Performance Evaluations
Must Reflect CTO Responsibilities

Although the CTOs play a critical role and have complex responsibilities in the
acquisition and assistance processes, USAID/Malawi did not hold its CTOs
accountable for performing their CTO responsibilities in accordance with USAID
policies and procedures and Federal regulations. Of the seven CTOs, the position
descriptions for five CTOs and work objectives for six CTOs did not reflect their
CTO responsibilities. Therefore, there was no official record of the duties,
responsibilities, and authority for each position. This occurred because the CTOs
were hired under different capacities, and their position descriptions and work
objectives were not revised to include CTO responsibilities when they were
designated as CTOs. In addition, the responsible Mission rating officers did not
obtain 360 degree input from the Contracting Office staff because it did not occur



                                                                                 11
to them to do so. As a result, the Mission lacked critical information for
evaluating the performance of the CTOs and holding them accountable for their
CTO responsibilities.

The following policies require the performance of USAID’s employees and
personal services contractors to be evaluated.

   •   USAID’s Automated Directives System 462 requires supervisors to work
       with U.S. direct hire employees to develop annual employee performance
       plans that contain work objectives and performance measures for critical
       tasks against which actual performance will be compared.

   •   The Foreign Affairs Handbook, 3 FAH-2 H-440, requires USAID to
       prepare position descriptions for Foreign Service Nationals, which will
       serve as the basis for performance evaluations. Furthermore, 3 FAH-2 H-
       441.3 states that a new or revised description is needed whenever there is
       a material change in the duties, responsibilities, or organizational
       relationships of an existing position.

   •   The Foreign Affairs Manual, 3 FAM 7260, states that personal services
       contracts with host country nationals or third country nationals must
       conform to requirements for foreign service nationals.

In addition, Mission Order No. 1111, dated August 14, 2001, states that the rating
officer is responsible for developing and maintaining the annual work plan, work
objectives and performance measurements. Furthermore, it states that the rating
officer is responsible for “gathering performance information from the
employee’s self-assessment, 360 degree input sources, direct observation of
performance, etc., in order to obtain an accurate overview of the employee’s
overall performance. This type of feedback provides information about the
employee’s performance on specific work objectives and appropriate skill areas.
Additionally, obtaining feedback from other persons involved in the rated
employee’s performance provides additional evidence about the employee’s work
that will either support or contradict the rater’s views.”

As of April 2003, USAID/Malawi’s seven designated CTOs, who were
overseeing 21 active awards, were comprised of one foreign service U.S. direct
hire, four foreign service nationals, one U.S. personal services contractor, and one
third country national personal services contractor. Although different personnel
policies regulate the performance evaluation of CTOs in different employment
categories, there is an underlying requirement that all employees should be
evaluated on the actual duties they are expected to perform. However, not all of
the CTOs’ position descriptions and work objectives reflected their CTO
responsibilities. The position descriptions for five CTOs and the work objectives
for six CTOs did not reflect their CTO responsibilities. Furthermore, the personal



                                                                                 12
services contractors’ statement of duties did not reflect any references to CTO
responsibilities.

A Mission official explained that accountability is an on-going day-to-day
responsibility. If an issue arises, it is discussed and resolved, possibly on the
same day that it occurs. Therefore, he did not see the need for the CTO
responsibilities to be included in the work objectives. However, he agreed that
CTO responsibilities should be included in the CTO’s position description.
Another Mission official said that the CTO designation letter and the award
document itself, which both contain the responsibilities of the CTO, hold the
CTOs accountable for the performance of their CTO tasks.

However, without including the CTO responsibilities in the position descriptions
of the CTOs, there is no official personnel record of the duties, responsibilities,
and authority for each position. Likewise, if the CTO responsibilities are not
reflected in the CTOs’ work objectives, the CTOs are not being accurately
measured for the CTO tasks they are performing. As a result, the Mission lacked
critical information necessary for evaluating the performance of the CTOs and
holding them accountable for their CTO responsibilities.

Additionally, the Mission officials and staff, who were responsible for the
evaluation of the CTOs’ performance, said that they did not obtain 360 degree
input from individuals who were most likely to have information on the
performance of CTO tasks—the staff of the Contracting Office. It did not occur
to the responsible Mission officials and staff to use the Contracting Office as a
source for 360 degree input. However, one Mission official mentioned that it was
his practice to obtain 360 degree input from the Contracting Office at his previous
post. But, being new at the Mission, he has not made it a practice to do so.

Without using the Contracting Office staff as a source for 360 degree input for the
performance evaluation of their CTOs, the Mission’s rating officers may not have
performed an accurate assessment of their CTOs’ overall performance.

Cognizant Technical Officers play a critical role in the acquisition and assistance
processes. The CTO’s responsibilities can be very complex, which would require
them to have the necessary qualifications to do the work. Because of their critical
role and complex responsibilities, the CTOs should be held accountable for
performing the tasks assigned to them. To help the Mission hold its Cognizant
Technical Officers accountable for performing their responsibilities in accordance
with USAID policies and procedures, we recommend the following:

        Recommendation No. 3:              We recommend that
        USAID/Malawi revise the position descriptions, work
        objectives, and statements of duties of employees, who are




                                                                                13
                        designated as Cognizant Technical Officers, to include their
                        Cognizant Technical Officer responsibilities.

                        Recommendation No. 4:            We recommend that
                        USAID/Malawi revise Mission Order No. 1111 to include the
                        requirement that rating officers obtain 360 degree input
                        from the Contracting Office, and other pertinent sources,
                        when evaluating the performance of the Cognizant Technical
                        Officers.



Management       In response to our draft report, USAID/Malawi provided written comments
Comments and     that are included in their entirety as Appendix II. All four recommendations
Our Evaluation   are open without a management decision.

                 For Recommendation No. 1, USAID/Malawi noted that they could not, rather
                 than did not, provide adequate training to their Cognizant Technical Officers
                 (CTO). The Mission also stated that since the USAID contract office and
                 training division, among other sections responsible for designing and offering
                 training, have yet to succeed in developing an Agency-wide requirement, it is
                 impossible for the Mission to fully comply with any recommended course of
                 CTO training. While we appreciate the Mission’s frustration with the CTO
                 program to date, the fact remains that USAID/Malawi did not provide enough
                 training and guidance to its CTOs in accordance with USAID and the Office
                 of Federal Procurement policies. A management decision can be reached
                 when USAID/Malawi indicates their agreement with the recommendation and
                 provides a corrective action plan with a target completion date.

                 For Recommendation No. 2, USAID/Malawi stated that notices are issued
                 regularly to team leaders to remind them to keep the Regional Contracting
                 Officer informed of changes in staff and the need for new or revised CTO
                 designations. They also stated that no Mission Order is necessary as the
                 requirement already exists in the regulations. We agree that a Mission Order
                 is not necessary, nor did the recommendation require one to be prepared. A
                 management decision can be reached when USAID/Malawi indicates their
                 agreement with the recommendation and provides a corrective action plan
                 with a target completion date.

                 For Recommendation Nos. 3 and 4, USAID/Malawi stated that they agreed
                 with the recommendations. A management decision can be reached when
                 USAID/Malawi provides corrective action plans with target completion dates.




                                                                                            14
                                                                                      Appendix I


Scope and     Scope
Methodology
              The Regional Inspector General, Pretoria conducted this audit in accordance
              with generally accepted government auditing standards. The audit is part of a
              worldwide audit led by the Office of Inspector General’s Performance Audits
              Division (IG/A/PA) in Washington, D.C. The audit was conducted to determine
              if USAID/Malawi (1) provided adequate training and guidance to its Cognizant
              Technical Officers (CTOs) to help ensure that they were aware of and capable of
              performing their responsibilities; and (2) held its CTOs accountable for
              performing their responsibilities in accordance with USAID policies and
              regulations. The audit covered the review of CTO training and performance in
              fiscal year 2002 and the first nine months of fiscal year 2003.

              The audit focused on reviewing management controls related to (1) the
              identification of the tasks to be performed by CTOs; (2) the identification of
              training needed by CTOs; (3) the provision of training to CTOs; (4) the
              establishment of work objectives and performance measures for CTOs; and
              (5) the evaluation of CTO performance. We interviewed all seven CTOs who
              were overseeing 21 active awards estimated at $40.2 million (this amount was
              not audited).       In addition, we reviewed pertinent employee-related
              documentation.

              We conducted the audit at USAID/Malawi located in Lilongwe, Malawi.
              Fieldwork was conducted in Lilongwe, Blantyre, Mangochi, and Zomba,
              Malawi from May 12 to May 30, 2003.

              Methodology

              To answer both audit objectives, we used the IG/A/PA-designed CTO
              questionnaire to gather information from the CTOs in USAID/Malawi.
              Through the questionnaire, we obtained information on the CTOs’ work
              background, training and experience in performing CTO tasks. As of April
              2003, USAID/Malawi had seven CTOs overseeing 21 active awards. We
              distributed the CTO questionnaire to all seven CTOs, who all responded. We
              did not develop materiality thresholds for the audit objectives.

              To answer the first audit objective, we analyzed the responses to the CTO
              questionnaire and interviewed the seven CTOs, their supervisors, the
              Contracting Office staff, the regional legal advisor, and the training coordinator.
              Due to time constraints, we judgmentally selected 12 implementing partners and
              interviewed them. These interviews provided us with an understanding of how
              CTOs performed their tasks and their level of understanding of their CTO
              responsibilities. We also reviewed pertinent training documents.




                                                                                              15
To answer the second audit objective, we reviewed relevant employee
evaluation documents such as position descriptions, work objectives, and
statements of duties for the seven CTOs interviewed. We examined these
documents to determine if they adequately delineated the scope and expected
standards for performance of their CTO responsibilities.

For criteria, we used relevant Automated Directives System chapters, the
Foreign Affairs Handbook, the Foreign Affairs Manual, Office of Federal
Procurement Policy Letter No. 97-01, Contract Information Bulletin No. 93-08,
and the Guidebook for Managers and CTOs on Acquisition and Assistance.




                                                                          16
                                                                                                          Appendix III


Management
Comments
                                United States Agency for International Development, Malawi
                                                         OfficeoftheDirector
                                 _________________________________________________________


             TO:                 Jay Rollins

             FROM:               Roger Yochelson /s/

             SUBJECT:            Mission Comments on Draft Audit of USAID/Malawi’s Training, Use and
                                 Accountability of Cognizant Technical Officers (Report No. 4-612-03-XXX-P)

             DATE:               August 6, 2003


             There were two audit objectives, one dealing with training and guidance to CTOs, the other
             with holding CTOs accountable for their performance.

             The Draft Audit Report states as to the first objective that the Mission did not provide enough
             training and guidance. As to the second objective the report states that the Mission did not
             hold CTOs accountable for performing their responsibilities in accordance with USAID policies
             and procedures.

             The Mission finds that as to the first objective the conclusion in the report is not supported by
             the information made available to the auditor. We find as to the second objective that the
             conclusion in the report is in error as being incomplete and inaccurate.

             Objective One:

             Central to the audit finding is that USAID did not provide enough training and guidance. As
             discussed with the auditor here, this mis-states the situation.

             USAID could not, rather than did not, provide adequate training.

             You are aware of the many revisions in the CTO training offered by the agency in recent years,
             and of the many revisions in CTO requirements. Numerous efforts by the Mission, and many
             other Missions, to adhere to the shifting requirements were frustrated by the changes being
             made on what seemed to many in the agency as a regular basis. When we began planning,
             certification was not even yet required, but had been announced as one day to be necessary
             for staff to serve as CTOs. We were proactive in trying to line up training for the entire staff –
             not just CTOs – involved in overseeing the work of contractors and grantees. The course then
             required and available was in three parts.

             The June 2002 course which the audit states “did not qualify” toward CTO certification had
             been announced to us as a course which did, in fact, qualify. This audit statement is therefore
             at odds with the information then being distributed within the agency.

             Indeed that course is a good example of the problem I describe. An exclusive contract had
             been awarded to PRGI to conduct the various segments of the CTO training. The first was the
             program we spent approximately $20,000, in time and direct cost, on. The trainer from PRGI
             did no training, and the RCO arrived with no preparation and no experience teaching such a
             course. That said, the week was undertaken, and it was our belief this was to be one of the
             three required modules. You can verify this with Washington. It was sometime later that the
             final (again) and current requirements were announced, and we were told that this one-week
             course would no longer be used as part of the qualification.




                                                                                                                  17
Nor could we, with a full portfolio and certain funding constraints, have scheduled training
more often than we did. The final and complete CTO training, completed for all but a couple of
staff (CTOs and others) a few weeks ago, was accomplished only after enormous shifting of
schedules in the Mission and months of planning with the one contractor we are allowed to
use. The audit findings take no note of these operational realities.

An additional element described in the audit is that staff did not have the required CTO skills
when they were hired. This is an observation which seems more logically suited to an audit of
agency-wide hiring practices. I say this because in the history of the agency there has never
been a time to my knowledge when a precondition to employment was a proven fluency with
the agency-specific requirements under our contracting and grant-making mechanisms.
Staff, including USDHs, are hired for various skill-related reasons, and then trained as to our
own procedures and mechanisms.

Finally, it bears emphasis that at no time did the Regional Contracting Office raise any
concerns or offer and guidance over CTO preparedness in the Mission. The responsibility for
ensuring a qualified CTO rests as well with the Contracts Officer who designates the CTO. I
would suggest that in the final version of the findings you make mention of this. It will assist
us in the future when we are again struggling for adequate RCO support.

Recommendation No. 1:

Training of all but one CTO has been completed. The recommendation therefore has been
rendered moot by events. The one CTO not trained is concluding a PSC contract, so the
training committee rightly determined that it was not justified to use resources to train
someone who might be leaving the agency in a matter of a couple of months. For all future
Mission staff, the development of training plans will be a part of the early phase of their work
here.

The recommendation however reflects again the too-narrow view of the issue: The agency
contract office and the training division, among other sections responsible for designing and
offering training, are a necessary component to the situation in a Mission. Where they have
yet to succeed, it is obviously impossible for the Mission to abide by any recommended
course of CTO training.

Objective Two:

The conclusion that “the Mission did not hold its CTOs accountable … in accordance with
policies and procedures” is incomplete.

As the audit points out, CTOs are very much held responsible for the work they are assigned,
including the CTO work. What remains to be finalized are the specific documents from the
RCO designating new staff as CTOs, and the addition of the technical language into position
descriptions.

Related to this: It is not accurate to state that “there was no official record of the duties and
responsibilities” of the CTOs. More accurate would be that in addition to descriptions of CTO
duties and responsibilities contained in various communications with CTOs, including the
CTO designation letter and the award documents, the Mission should complete the inclusion
of CTO duties in position descriptions.

The role and actions of the RCO come into play here again. To the extent that 360 input was
not obtained from the RCO, neither did the RCO raise this issue with the Mission. We count on
guidance from that office. Likewise, the RCO knew of changes in staffing, and as I mentioned
did not take any role in advising the Mission as to requirements to notify formally.

Recommendation No. 2:




                                                                                                    18
This had been done as of the date of the draft audit. Notices are issued regularly to team
leaders to remind them to keep the RCO informed of changes in staff and the need for new or
revised CTO designations. No Mission Order is necessary, as the requirement exists in the
regulations already.

The Mission agrees with Recommendation Nos. 3 and 4.

In closing, as a general comment I would add that the stark language of the audit findings do
not take into account nuances nor standard practice in the agency. The practice varies quite a
lot from written policies. This does not obviate the need to attend to those policies. It does
however mean that a written analysis of Mission practices should recognize that the common
law, if you will, is being observed.




                                                                                                 19
